HHS/OIG - Audit, "Partnership Review of Medical Claims Submitted by
an Alternate Payee Under The Illinois Medicaid Program - Illinois Department of
Public Aid, Springfield, Illinois," (A-05-02-00027)
Department
of Health and Human Services
"Partnership Review of Medical Claims Submitted by An Alternate Payee
Under the Illinois Medicaid Program - Illinois Department of Public Aid, Springfield,
Illinois," (A-05-02-00027)
July 23, 2002
Complete Text of Report is available in PDF format
(323 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this joint review with the OIG of the Illinois Department
of Public Aid (IDPA) was to develop and validate a time dependent billing routine
that would identify practitioners who submitted claims for more time than is
feasible in a day.  The time dependent billing routine identified practitioners
who billed for one or more 12-hour days for dates of service from July 1, 1998
to June 30, 2000, inclusive.  These physicians had charged for more time
than is feasible in a day.  We recommended that IDPA instruct physicians
to submit properly coded claims based on the level of care and time spent by
the physician with each patient.  The IDPA concurred with our findings
and recommendation.